f

f
No.

IN THE
SUPREME COURT OF THE UNITED STATES

WARREN TARVER
Petitioner
VS.

STATE OF FLORIDA
Respondent

PROOF OF SERVICE
I, Warren Tarver, do swear or declare that on this date. FeWufiry | Q _, 20£i, as
required by Supreme Court Rule 29 I have served a MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage pre-paid, or by delivery to a third-party
commercial carrier for delivery within 1 calendar days.
The names and addresses of those served are as follows:
AsV\\e^ M/sod'j .

Attorney General
The Capitol PL-01
Tallahassee, Florida 32399-1050

RECEIVED
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February [ 0

2021

MAR 2 ' 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

I

/

/

Warren Tarver #L13572

